         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Waste Disposal and Recovery Act
Efforts at the Oak Ridge Reservation




INS-RA-L-12-01                    December 2011
                                 Department of Energy
                                    Washington, DC 20585
                                       December 16, 2011


MEMORANDUM FOR THE MANAGER, OAK RIDGE OFFICE

FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                          for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Waste Disposal and
                         Recovery Act Efforts at the Oak Ridge Reservation"

BACKGROUND

The Department of Energy's (Department) expends billions of dollars to clean up contaminated
sites and dispose of hazardous waste. The Department's Oak Ridge Office (ORO) is responsible
for processing and disposing of the Transuranic (TRU) waste on the Oak Ridge Reservation
(ORR), including approximately 3,500 cubic meters of legacy remote-handled (RH) and contact-
handled (CH) TRU waste from more than 50 years of energy research and weapons production.
The ORR was selected to receive $755 million in American Recovery and Reinvestment Act of
2009 (Recovery Act) funds, of which $143.5 million was allocated for the Transuranic Waste
Processing Center (TWPC) in Lenoir City, Tennessee. The Department selected the TWPC
project for Recovery Act funding because it was deemed to be "shovel-ready" and was set for
immediate implementation.

In December 2009, the Department awarded Wastren Advantage, Inc. (Wastren) a $109 million
3-year Cost-Plus-Award-Fee contract to manage and operate TWPC. About $83 million of
Recovery Act funds were allocated to accelerate the treatment and disposition of the legacy TRU
waste by at least one year. In May 2010, Wastren submitted a Request for Equitable Adjustment
for an additional $110 million, noting that the scope of work was greater than originally
anticipated.

OBSERVATIONS AND CONCLUSIONS

Our inspection did not identify significant issues with the use of Recovery Act funds. However,
we noted that the TWPC project, although initially thought to be "shovel-ready," encountered a
number of obstacles in processing and disposing of ORR's TRU waste. Because of technical
problems, including significant ground water infiltration in RH waste storage casks, the TWPC
project was behind schedule and at risk of not achieving its accelerated waste disposal goals. In
response, Department officials initiated a number of program changes designed to ensure that
new, realistic TRU waste processing goals are developed and achieved.
                                   TRU Waste Performance Goals

Although ORO had achieved some success in TRU waste processing, ORO officials
acknowledged that more needs to be done to address the obstacles encountered and meet
established goals for processing and disposing of CH and RH TRU waste.1 Obstacles
encountered after award of the contract to Wastren included significant ground water infiltration
of waste storage casks, high neutron levels, waste manipulator failures and certification
requirements for CH waste that have caused processing and shipping disposal delays. To
address the problems encountered, ORO has adopted a new approach and schedule for
completing needed TRU waste processing and disposal activities. As noted in the following
table, the revision in strategy will likely result in a significant reduction in volume and an
increase in completion of the goals. The differences between the original contract requirements
and the revised strategy are attributed to the waste processed from Request for Proposal to
present.

                           TRU Waste Processing Requirement versus Strategy

                                       Original Contract
                                        Requirements                           Revised Strategy
           Types of Waste                           Final                     Cubic           Final
           to be Processed           Cubic        Disposal                   Meters         Disposal
                                     Meters          Date               (as of Nov 2011)      Date
          CH TRU                     1,000        Sep 2011                     426         Mar 2016
          RH TRU                       500        May 2011                     463          Sep 2016

In addition to modifying its overall processing goals and due to the prioritized redirection of
National TRU Waste Certification resources, ORO officials have directed TWPC's future
processing activities to focus on screening the legacy TRU inventory to segregate low-level
waste (LLW) and mixed low-level waste (MLLW) from the overall TRU waste inventory; and,
completing the required re-packaging of the entire inventory in preparation for disposition.2
Specifically, the TWPC will focus on:

         Adding a second line of equipment to increase waste characterization throughput
         capability. After the waste has been processed and repackaged the LLW and MLLW will
         be segregated from the TRU waste inventory. Once segregated, the LLW/MLLW will be
         promptly shipped to the appropriate disposal site; and,




1
 Transuranic waste is radioactive waste that is associated with the human manipulation of fissionable material
dating back to the Manhattan Project that requires special handling based on its composition. Remote Handled is
waste that is processed with additional shielding due to its higher dose of radionuclides and is processed by remote
control equipment, as opposed to Contact Handled which can be safely handled.
2
 Low-level waste has low levels of radioactivity and is relatively short-lived. Mixed waste contains both hazardous
chemicals and radioactive components and the disposal is subject to the Resource Conservation and Recovery Act.

                                                          2
       Onsite storage of the "suspect" TRU waste, waste that cannot be definitely determined to
       be LLW or MLLW, until final characterization and certification of this waste has been
       completed for final disposition.

According to a senior ORO official, this new focus and strategy is expected to provide more
efficient characterization and shipping of LLW/MLLW, as well as accelerate the final
characterization and certification of TRU waste upon return of the Central Characterization
Project.

                                      Operational Efficiency

In addition to the new strategy, Department officials also told us that they plan to make other
improvements to increase operational efficiency. Specifically, officials plan to complete:

       Construction of a Cask Processing Enclosure that will be operational in April 2012. This
       enclosure is expected to significantly increase the processing rate of the RH casks;

       A permit for the recently-constructed, multi-purpose building that will provide additional
       on-site waste storage beginning third quarter, Fiscal Year (FY) 2012. The additional on-
       site storage will eliminate the need to transfer waste off-site for temporary storage, only
       to be returned again to the TWPC for final processing and shipment;

       Procurement of two new, more robust waste manipulators for use in the Hot Cell, which
       are protected enclosures used to handle radioactive materials;

       Activation of additional glovebox processing stations (enclosed workspaces equipped
       with gloved openings that allow manipulation in the interior of the enclosure, designed to
       prevent contamination) by fourth quarter, FY 2012 to enhance the CH TRU waste
       processing efficiency; and,

       Installation of a manipulator service building in FY 2013 to enable minor on-site repairs
       of manipulators to increase operational efficiency.

We believe that ORO's planned actions, if successfully implemented, should help mitigate the
schedule issues we identified. The actions are consistent with a change in the National-level
TRU waste program; an effort undertaken by the Department to safely and cost-effectively
dispose of 90 percent of the Department's legacy TRU waste inventory by the end of 2015 while
meeting environmental, safety and other regulatory requirements. Therefore, we have no further
recommendations for corrective action and a formal response is not required. We do, however,
suggest that management closely monitor implementation of planned actions.




                                                 3
Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Under Secretary for Science
      Chief of Staff
      Acting Chief Financial Officer
      Chief, Health, Safety and Security Officer, Office of Health and Security




                                                4
                                                                                     Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

Given the Department's continuing challenges with contract and project management, we
initiated this inspection to determine the effectiveness of the Department of Energy's
(Department) project management of the Transuranic Waste Processing Center (TWPC).

SCOPE AND METHODOLOGY

We completed the fieldwork for this performance inspection in December 2011, at the Oak
Ridge Reservation (ORR). To accomplish the inspection objective, we:

       Obtained, reviewed and analyzed applicable sections of the Department's Performance-
       Based Contracting Guide, Request for Proposal, Performance Work Statement,
       Performance Evaluation Plan and related documentation regarding the current contract;

       Interviewed senior Federal officials including, the Contracting Officer, Contract
       Specialist, Contracting Officer's Representative and the Project Manager concerning
       various contracting matters and challenges;

       Interviewed senior contractor officials on various contracting matters and challenges;

       Performed a comprehensive analysis of the originally projected against actual cost,
       schedules and completion dates;

       Obtained and reviewed Department requirements for effective project management, as-
       well-as by the Department's performance incentive documentation, including fee
       determining methodologies; and,

       Reviewed previous related reports by the Department's Office of Inspector General and
       the U.S. Government Accountability Office.

We conducted this performance inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's "Quality Standards for Inspections" issued by the
President's Council on Integrity and Efficiency. Those standards require that we plan and
perform the inspection to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusions and observations based on our inspection objective. We believe the evidence
obtained provides a reasonable basis for our conclusions and observations based on our
inspection objective. The inspection included tests of controls and compliance with laws and
regulations to the extent necessary to satisfy the inspection objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our inspection. Also, we assessed ORR's compliance with Government
Performance and Results Act of 1993 and found that, although specific performance measures
had been established through the use of Performance Evaluation Plans to incentivize the
contractor to meet measurable metrics, these metrics had recognized the technical issues for

                                                5
                                                                         Attachment 1 (continued)


processing the waste, and were not established to meet the overall goals of the contract. Finally,
we relied on computer processed data, to some extent, to satisfy our objective related to contract
modifications and funding adjustments. We confirmed the validity of such data, as appropriate,
by conducting interviews and reviewing source documents.

Management waived the exit conference.




                                                6
                                                                 IG Report No. INS-RA-L-12-01

                               CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                  U.S. Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

                        Your comments would be appreciated and can be provided
                         on the Customer Response Form attached to the report.
